4
I

C@QCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B pleas contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-303

UNITED STATES OF AMERICA,
Petitioner,
v.
JOSE LUIS VAELLO-MADERO,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE VIRGIN ISLANDS BAR ASSOCIATION IN OPPOSITION TO SUMMARY
REVERSAL in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4206 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of November, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY State of Nebraska & Chk
RENEE J. GOSS 9. Qudraw- .
Notary Public

Affiant

40237
